<html>
<title> - THE CRIMINAL JUSTICE SYSTEM AND MENTALLY ILL OFFENDERS</title>
<body><pre>[Senate Hearing 107-910]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-910
 
                    THE CRIMINAL JUSTICE SYSTEM AND 
                         MENTALLY ILL OFFENDERS
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2002

                               __________

                          Serial No. J-107-84

                               __________

         Printed for the use of the Committee on the Judiciary











                       U. S. GOVERNMENT PRINTING OFFICE
86-518                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio, 
  prepared statement.............................................    33
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    35

                               WITNESSES

Caceci, John, Captain, Monroe County Jail, Rochester, New York...    13
Margolis, Gary, Director of Police Services, University of 
  Vermont, Burlington, Vermont...................................     6
Mayfield, Kenneth President-Elect, National Association of 
  Counties, and Commissioner, Dallas County, Dallas, Texas.......    11
Strickland, Hon. Ted, a Representative in Congress from the State 
  of Ohio........................................................     3
Sudders, MaryLou, Commissioner of Mental Health, Commonwealth of 
  Massachusetts, Boston, Massachusetts...........................     9

                       SUBMISSIONS FOR THE RECORD

Bazelon, David, Judge, Center for Mental Health Law, letter......    21
Caceci, John, Captain, Monroe County Jail, Rochester, New York, 
  prepared statement.............................................    23
Margolis, Gary, Director of Police Services, University of 
  Vermont, Burlington, Vermont, prepared statement...............    37
Mayfield, Kenneth President-Elect, National Association of 
  Counties, and Commissioner, Dallas County, Dallas, Texas, 
  prepared statement.............................................    50
Strickland, Hon. Ted, a Representative in Congress from the State 
  of Ohio, prepared statement....................................    59
Sudders, MaryLou, Commissioner of Mental Health, Commonwealth of 
  Massachusetts, Boston, Massachusetts, prepared statement.......    72
Wilkinson, Reginald A., Director, Ohio Department of 
  Rehabilitation and Correction, Columbus, Ohio, statement.......    75


         THE CRIMINAL JUSTICE SYSTEM AND MENTALLY ILL OFFENDERS

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senator Leahy.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. Today, this committee is 
going to consider an important but, I am afraid, often 
overlooked criminal justice issue--the impact of mentally ill 
offenders on our justice system. The consideration of the 
committee will be aided by the release of a comprehensive 
report on that topic by the Council of State Governments. We 
are also going to hear from a number of criminal justice and 
mental health experts, who will explain why the issue of 
mentally ill offenders has presented such problems for State 
and local governments. I hope this hearing will raise awareness 
of the role of mental illness in causing crime and help 
Congress valuate what role the Federal Government can play in 
helping State and local governments address this issue.
    Now, we are all too familiar with the role that drug abuse 
plays in promoting crime--from drug trafficking itself, to 
property crimes committed by addicts or those seeking money to 
buy drugs, even to the tragedy of murders committed by dealers 
seeking to gain or maintain control over what have become 
lucrative drug markets. We are also well acquainted with the 
occasional notorious crime committed by mentally ill 
individuals--the assassination attempt, for example, against 
President Reagan. But today we will focus on the persistent 
problem of people with mental illness who repeatedly rotate 
between the criminal justice system and the outside world, 
committing a series of minor offenses that occupy the time of 
law enforcement officers and actually divert them from their 
more urgent responsibilities. Now, some mentally ill offenders 
also abuse drugs and/or alcohol, and that further complicates 
matters.
    We will hear today from witnesses who have expertise in 
this area from varying perspectives, including law enforcement, 
corrections, State mental health systems, and local government.
    I must admit--and I hope people won't believe I am being 
parochial, but I want to give a particular welcome to Gary 
Margolis, who is the Chief of Police Services at the University 
of Vermont. I worked with Chief Margolis on a whole number of 
issues over the years, and not only have I but my staff has 
relied on his very good judgment. And I appreciate 
Representative Ted Strickland coming over from the other side 
of the Hill. He has personal experiences with mentally ill 
offenders. He served as--and tell me, Congressman, if I am 
right on this--a consulting psychologist at the Southern Ohio 
Correctional Facility before coming to Congress. I mention that 
because of how fortunate we are when people who have all these 
different backgrounds come into Congress, and both the House 
and the Senate have benefited from Congressman Strickland's 
expertise.
    The Council of State Governments' report was developed by 
nearly 100 criminal justice and mental health policymakers--
Republicans and Democrats--who wanted a non-partisan report on 
how to improve the criminal justice system and how it handles 
people with mental illness. They had sheriffs, chiefs of 
police, prosecutors, judges, corrections directors, parole 
board chairmen, mental health professionals. That is pretty 
extensive. The Police Executive Research Forum and the 
Association of State Correctional Administrators worked with 
the Council of State Governments and the Bazelon Center for 
Mental Health Law.
    The evidence shows the severity of the problem. It found 
that more than 16 percent of those incarcerated in jails and 
prisons have a mental illness. The Office of Juvenile Justice 
and Delinquency Prevention reports that more than 20 percent of 
the youth in the juvenile justice system have serious mental 
health problems. The Los Angeles County jail often holds more 
people with mental illness--the Los Angeles County jail--than 
any State hospital or mental health institution in the United 
States. Every State witnesses examples of this.
    Last December, Robert Woodward, a mentally ill man, 
interrupted services at All Souls Church in West Brattleboro, 
threatened first to kill himself, then armed with a knife, 
charged three officers who had responded to the scene. They 
fired back in defense. Mr. Woodward died later that day. This 
is tragic all the way, the tragedy of the effect on the 
officers, the effect on Mr. Woodward, and those who were in the 
church. And so we have to look at these things.
    We should all agree that it makes sense to help State and 
local governments improve the availability of mental health 
services, to train their law enforcement personnel to recognize 
the signs of mental illness, but then to give prosecutors more 
tools in dealing with them.
    Helping people with mental illness is the right thing to 
do. It would improve the safety of all Americans, but we also 
have to give the tools to those we ask to protect all 
Americans. I have worked with Senator Hatch and others to 
increase funding for drug treatment. We want to reduce crime, 
but we should also be interested in this issue. I have proposed 
including a study on the ability of mentally ill offenders to 
reintegrate into society after their release.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Leahy. If I might, I would call on Congressman 
Strickland to come forward.
    To give you an idea, as I said, about the background of 
people who come here and absolutely improve the Congress with 
their background, Congressman Strickland represents the 6th 
District of Ohio. He has a master's of divinity degree from 
Asbury Theological Seminary, a doctorate in counseling 
psychology for the University of Kentucky. He served as a 
minister, college professor, and a psychologist. Actually, all 
three are probably necessary just to serve with the rest of us 
up here.
    [Laughter.]
    Chairman Leahy. At least speaking for myself. So, 
Congressman, I am delighted to have you here. Please go ahead, 
sir.

STATEMENT OF HON. TED STRICKLAND, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Representative Strickland. Thank you, Mr. Chairman, for 
your graciousness in having me here and giving me the 
opportunity to testify today about the solutions to the 
problems of the mentally ill in the criminal justice system. As 
a psychologist and as someone who has worked in a maximum 
security prison and as a Member of Congress who has worked 
through legislation to try to solve some of these problems, I 
hope that I can provide some helpful insights to you and the 
committee.
    The striking statistic which you have just shared with us, 
Mr. Chairman, and that we will probably hear multiple times 
today is that, according to the Bureau of Justice Statistics, 
over 16 percent of adults in our jails and prisons have a 
mental illness, and the Office of Juvenile Justice and 
Delinquency Prevention tells us that over 20 percent of the 
youth who are in juvenile justice systems have serious mental 
health problems.
    In 1963, Health, Education and Welfare Secretary Anthony 
Celebrezze said, ``The facts regarding mental illness and 
mental retardation reveal national health problems of tragic 
proportions compounded by years of neglect.'' He said that 
large State mental hospitals were primarily institutions for 
quarantining the mentally ill, not for treating them, and that 
``all levels of government, as well as private individuals and 
groups, must share the responsibilities of a 20th century 
approach to this outstanding national health problem.''
    Well, Congress responded to this ``outstanding mental 
health problem'' by passing the Community Mental Health Centers 
Act, which sought to move as many of the mentally ill as 
possible out of prolonged confinement in overcrowded State 
custodial institutions into voluntary treatment at community 
mental health centers. On October 31, 1963, President Kennedy 
signed the Community Mental Health Centers Act into law. 
Unfortunately, Congress failed to keep the Act's promise by 
failing to fund it, and the money States needed to build 
adequate community mental health infrastructures flowed to 
other priorities.
    Although the reforms were well intended and had the purpose 
of protecting the mentally ill, they resulted in many of the 
most severely ill going without treatment and, in too many 
cases, becoming homeless, incarcerated, suicidal, and 
victimized. Ironically, these efforts are euphemistically 
referred to as ``the deinstitutionalization movement.'' But, in 
my opinion, the huge numbers of mentally ill individuals in 
jails, prisons, homeless shelters, and flop houses demand that 
we call this movement what it has become: 
transinstitutionalization.
    I believe there are two ways we must address this problem.
    First, we must require that health plans stop 
discriminating against mental health treatment. There is no 
scientific justification for treating mental health benefits 
differently from other benefits. S. 543, which has been 
introduced by Senator Domenici, and H.R. 4066, which has been 
introduced by Representative Roukema and of which I am a proud 
cosponsor, would guarantee that health plans offer equal 
coverage of mental health and physical health.
    Second, and most important for the topic at hand today, is 
that we must give the criminal justice system that resources it 
needs to divert and treat the mentally ill.
    Senator DeWine and I worked together in the 106th Congress 
to begin to address some of these issues by creating a 
demonstration program to encourage the creation of mental 
health courts, which are courts with dedicated dockets with a 
dedicated judge where defendants may receive court-supervised 
treatment rather than jail terms. In most instances, the 
existence of the court allows a community to leverage 
additional mental health treatment resources because the base 
of support covers all parts of the criminal justice system, 
including law enforcement and court systems.
    However successful, the mental health court initiative is 
but a small piece in what is needed to address the problem of 
the mentally ill at all stages of the criminal justice system. 
I am glad to be working with Senator DeWine and with you, 
Chairman Leahy, to build on the mental health court initiative. 
We are working to craft a bill that comprehensively addresses 
the problem of the mentally ill in the criminal justice system 
by encouraging law enforcement and criminal justice systems 
within communities to collaborate with treatment providers to 
ensure that individuals with mental illness receive all the 
services they need to live healthy, productive lives.
    The bill under consideration will provide funds for States 
and localities to create diversion programs within the criminal 
and juvenile justice programs; provide training fund and 
materials so that police and correctional officers can 
recognize the symptoms of mental illness and create appropriate 
plans of action when a mental illness is recognized; and ensure 
that treatment and services, including housing, education and 
training, and health care are available when an individual with 
a mental illness is released from prison.
    The bill will allow States and communities the flexibility 
to design a treatment program that meets their individual 
needs, but it will also require collaboration on the part of 
the agencies providing these services.
    For example, a significant percentage of adults with 
serious mental illness in the criminal justice system were 
homeless upon arrest, and a lack of housing is a contributor to 
their difficulties in accessing treatment and other services or 
holding a job.
    The bill we will introduce will seek to address this 
problem by requiring that communities receiving grants 
coordinate with the Department of Housing and Urban Development 
and ensure that they have a plan of action for the housing 
needs of individuals with serious mental disorders, including 
those who are released from prison or jail. If this 
collaboration is successful, fewer individuals with serious 
mental disorders will commit another crime. I truly believe 
that based on my experience.
    Collaboration between education and training as well as 
employment agencies must also occur. The bill will address both 
the juvenile and adult mentally ill populations by ensuring 
that communities receiving grants meet the unique needs of both 
adults and youth. In addition, the bill will have an evaluation 
component to ensure that the communities that receive funds are 
using them for programs that are effective. This will also 
ensure that extremely successful programs are recognized and 
can be replicated in other communities.
    I believe this sort of collaboration is the best way to 
create a legislative mechanisms that will bridge the gap 
between the mental health and the criminal justice systems. It 
is through this gap that so many mentally ill defendants 
currently fall. Both Senator DeWine and I are working hard on 
this bill, and I am hopeful that it will be ready to be 
introduced very soon.
    In conclusion, Mr. Chairman, I want to thank this committee 
for looking closely at a problem which too many of us have 
turned away from. I believe there is a consensus among a broad 
spectrum of stakeholders and political ideologies that lead us 
to the practical steps we can take to stop the criminal justice 
system from being this country's primary caretaker of the 
seriously mentally ill. I am so pleased and proud to be a part 
of this effort, and I thank you, Mr. Chairman, for this 
opportunity to speak to you this morning.
    Chairman Leahy. Well, thank you, Congressman Strickland. 
And I directed my staff to continue working with yours and 
Senator DeWine's on this legislation, introducing it soon. 
Again, just on a personal note, I appreciate your leadership in 
this. You come as well qualified as anybody I have served with 
in the Congress to give that kind of leadership.
    I have no questions. I also know you are supposed to be at 
about five other things in the House right now, so, of course, 
you are excused. But I appreciate you coming over.
    Let's have our staffs work on the final part, and you and I 
can see what we can get passed.
    Representative Strickland. Thank you very much.
    Chairman Leahy. Thank you.
    [The prepared statement of Mr. Strickland appears as a 
submission for the record.]
    Chairman Leahy. We are going to set up for the next panel, 
which will be: Chief Gary Margolis, University of Vermont, 
Director of Police Services; Marylou Sudders, the Commissioner 
of Mental Health, Commonwealth of Massachusetts; Kenneth 
Mayfield, the President-Elect of the National Association of 
Counties, also a Commissioner of Dallas County, Dallas, Texas; 
and Captain John Caceci--how close did I come?
    Mr. Caceci. ``Caceci.''
    Chairman Leahy. I am sorry. I should know that. Captain 
Caceci and I were talking about our Italian heritage earlier. 
My late mother, whose family came here from Italy, would 
probably have a word with me if she heard me mispronounce a 
name like that.
    Please, why don't you all come forward and take your places 
at the table.
    Again, I thank you for taking the time to come here. I 
should note that Chief Margolis is the chief and Director of 
Police Services at the University of Vermont. He is testifying 
on behalf of the Police Executive Research Forum and the 
Council of State Governments. He has a doctorate in educational 
leadership and policy studies. He served on the committee that 
produced the Council of State Governments Criminal Justice/
Mental Health report.
    Ms. Sudders has served as Commissioner of Mental Health for 
Massachusetts since 1996. To put that in perspective, she 
oversees a mental health system that will deliver services to 
more than 24,500 Massachusetts residents. She previously served 
as New Hampshire's commissioner and is testifying on behalf of 
the National Association of State Mental Health Program 
Directors.
    I mentioned Mr. Mayfield is the Commissioner of Dallas 
County, and I enjoyed talking about mutual friends with him, 
but he is also, more importantly right now, the President-Elect 
of the National Association of Counties.
    The captain has worked in law enforcement for nearly 20 
years and supervises all uniform personnel at the Monroe 
County, New York, jail where, I am sorry to say, he has had 
extensive experience with mentally ill offenders, and I must 
say I am glad to have you here because your experience is not 
in the abstract. I think that would be safe to say.
    We will begin with Chief Margolis.

   STATEMENT OF GARY MARGOLIS, DIRECTOR OF POLICE SERVICES, 
           UNIVERSITY OF VERMONT, BURLINGTON, VERMONT

    Chief Margolis. Good morning. Thank you, Senator. This is 
indeed an honor to be here before you today.
    My name is Gary Margolis, and I am the Chief of Police for 
the University of Vermont. As Senator Leahy knows, Vermont is 
struggling like other States across this Nation to improve how 
we respond to people with mental illness in the criminal 
justice system, and I applaud you and this committee for taking 
on this difficult issue.
    Today I am representing the Police Executive Research Forum 
and the Criminal Justice/Mental Health Consensus Project, a 2-
year initiative coordinated by the Council of State 
Governments. Together with numerous criminal justice 
professionals and mental health professionals along with 
victims' advocates and consumers, we have developed concrete 
recommendations for providing appropriate responses to people 
with mental illnesses at risk of criminal justice involvement. 
In my testimony today, I will describe traditional responses 
and the problem at hand, while suggesting steps this committee 
can take to help us.
    So many police encounters involve people who essentially 
are displaying symptoms of untreated mental illness, and let me 
be clear at this point and from the start that any person who 
commits serious crime should be arrested, prosecuted, and 
appropriately sentenced, including the mentally ill. But as I 
will illustrate, when it comes to the police response to people 
with mental illnesses who commit less serious crimes, we can 
serve them and our communities better by a collaborative 
police-mental health approach.
    Many police encounters involve persons acting in a 
disorderly or disturbing manner, and the examples are 
plentiful. It could be the person urinating on a street corner 
or directing traffic in the middle of Main Street. In other 
cases, a family member called because their loved one with a 
history of mental illness needs immediate help and they don't 
know where to turn. They may be frightened for their own 
safety, or they can no longer take the stress.
    In these scenarios, we all agree that treatment is needed. 
Often the police are the only resources available 24 hours a 
day, 7 days a week, and we simply do not possess the diagnostic 
expertise of mental health professionals. In many rural areas, 
we may be the only resource available within a 45-minutes or 
more drive. In communities without effective partnerships, the 
police have three options: first is to do nothing, and we must 
accept the fact that in some communities with severely 
inadequate treatment services this approach continues to be a 
reality.
    The second is to link the person with appropriate mental 
health services. But, unfortunately, as in the first, in many 
communities such services are simply inaccessible.
    The third and by far most common option is to arrest if a 
minor crime has been committed. When arrested, minor offenders 
with mental illnesses land in a criminal justice system ill-
equipped to meet their needs, where they often deteriorate 
further. They then re-enter the community far worse and the 
cycle repeats.
    Only the relatively rare police call involves a person with 
mental illness exhibiting threatening behavior and brandishing 
a weapon. These tragic incidents perpetuate the myth that 
people with mental illnesses are more violent than the general 
population, and this is what becomes our front-page news.
    I am going to reiterate a story the Senator began with, 
that on Sunday, December 2, 2001, Robert Woodward interrupted 
service at the All Souls Church in West Brattleboro, Vermont. 
He held a three-and-a-half-inch blade to his right eye while 
threatening to kill himself if folks left the service. Mr. 
Woodward refused to comply with repeated requests from the 
police to drop his weapon, and when he advanced towards the 
officers, he was shot. He died only hours later.
    In a statement to a rescue squad member, Mr. Woodward said, 
``Please tell the officer I assaulted that I did not want to 
hurt him. I would not have harmed him. I just wanted him to 
shoot me.'' The Vermont Attorney General concluded that the 
shooting death of Robert Woodward, ``although tragic, was 
legally justified.''
    There are far too many examples like this in every 
jurisdiction. Too often, we had been there before, we had known 
of the problem, but the underlying mental health issues were 
never fully addressed. We respond time after time to the same 
locations of individuals, spending considerable resources in a 
helpless cycle, particularly in a time when Federal authorities 
are relying on local police to help in our war on terrorism. 
And on behalf of my colleagues, I am here to state that we are 
frustrated.
    The reality is that police response is dictated by agency 
resources and community support. We must work collaboratively 
to develop solutions. The Consensus Project identified several 
best practices to serve as models. We know that effective 
police response to people with mental illness depends on 
extensive collaborations with the mental health community. 
Funding for the Consensus Project is an excellent example of 
this at the Federal level. The Department of Justice Office of 
Justice Programs and the Department of Health and Human 
Services Substance Abuse and Mental Health Services 
Administration each made extensive contributions. They promoted 
efforts by the State and local governments----
    Chairman Leahy. If you could hold up, somebody has a very 
important phone call. I don't want them to miss it.
    In fact, if he would like to step outside and take it, he 
is more than welcome to.
    Go ahead, chief.
    Chief Margolis. Thank you, sir. We know that effective 
police responses to people with mental illness depend on 
extensive collaboration with the mental health community. 
Funding for this Consensus Project is an excellent example of 
this at the Federal level. The Department of Justice Office of 
Justice Programs and the Department of Health and Human 
Services Substance Abuse and Mental Health Services 
Administration each made extensive contributions. They promoted 
efforts by the State and local governments to develop the 
solutions rather than imposing a one-size-fits-all Federal 
mandate.
    Another important step was the enactment of America's Law 
Enforcement and Mental Health Project, the law that Senator 
DeWine and other committee members originally sponsored. We 
need your help and today's hearing marks an exciting step. I 
respectfully request the committee consider the following:
    First, we need the Federal Government's help in determining 
what works.
    Second, resources from the Federal Government are essential 
to seed new programs and facilitate coordination between 
criminal justice and mental health organizations.
    In closing, in these difficult times it is easy to dismiss 
the issue we raise today. I implore you to think otherwise. Our 
important efforts to combat terrorism cannot impede our 
progress on other fronts. There are solutions described in the 
Consensus Project report which we can implement with your help. 
The bottom line is we can do better. We owe it to the people 
with mental illness who need our help. We owe it to their 
families and loved ones, to the victims and to the communities 
who trust us, the police, to respond effectively to their calls 
for help.
    Thank you, Senator.
    [The prepared statement of Chief Margolis appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Commissioner?

 STATEMENT OF MARYLOU SUDDERS, COMMISSIONER OF MENTAL HEALTH, 
      COMMONWEALTH OF MASSACHUSETTS, BOSTON, MASSACHUSETTS

    Ms. Sudders. Good morning, Mr. Chairman. Thank you for the 
invitation to testify about the interrelationship between 
criminal justice and mental health. Addressing this very 
serious matter requires true leadership and true partnership 
between mental health and criminal justice at all levels.
    I am here in two capacities. First, it is my great honor to 
serve as Commissioner of Mental Health for the great 
Commonwealth of Massachusetts. The mission of the department is 
to improve the quality of life for adults with serious and 
persistent mental illness and children with severe emotional 
disturbance. As you noted, I serve on any given day 24,000 
individuals in Massachusetts. I am also here as a member of the 
Board of the National Association of State Mental Health 
Program Directors, which represents the $20 billion public 
mental health system in the 50 States and the District of 
Columbia. I am authorized to speak on behalf of all State 
mental health authorities and to present a national perspective 
regarding the urgency this issue creates for States in both our 
criminal justice and mental health systems.
    I should note that NASHMHPD, in fact, has formed a task 
force devoted to this very topic. Others here this morning will 
focus on the burden on the criminal justice system. I will 
focus on the challenges in the public mental health system, as 
well as specific action that may be taken by Federal, State, 
and local governments.
    Let me begin by applauding the committee for convening this 
hearing and bringing together what some might consider the 
strangest of bedfellows. As you will hear, however, this 
collaboration--between those responsible for criminal justice 
and mental health systems--is essential and, in some cases, 
long overdue. And we all know the tragedies. Where the seeds of 
that collaboration have been planted, significant outcomes have 
been achieved. But these achievements have been sporadic at 
best. Federal leadership and support at this time is critically 
needed.
    Public mental health systems know much about how to provide 
services for people with mental illness who are at risk of 
criminal justice involvement, but we face significant 
challenges in translating all that we know into practice. We 
must overcome the conflicts and inconsistencies inherent in 
fragmented funding strategies at national, State, and local 
levels.
    Our efforts must involve a two-pronged approach. First, we 
must prevent criminal justice involvement of people with mental 
illness by diverting them into community treatment. And, 
second, we must meet the needs of people with mental illness 
who are returning to the community from jail or prison. And, of 
course, it is essential to ensure that a mentally ill person 
receives good treatment while incarcerated. This involves 
forging links with jails and prisons to develop effective pre-
release planning, including reinstatement of benefits for those 
who are eligible and identification of suitable housing.
    Any systems approach must include the integration of 
substance abuse and addictions treatment with mental health 
interventions. Co-occurring illnesses must be seen as the 
expectation and not the exception. We know from research that 
when substance abuse co-exists with mental illness, the risk of 
violence significantly increases.
    The Council of State Governments' Criminal Justice/Mental 
Health Consensus Project provides a superb template for action. 
Its report reflects the concept that early intervention yields 
best outcomes. In criminal justice terms, this means fewer 
police encounters for people with mental illness, fewer people 
with mental illness on court dockets or in jail holding cells, 
less time spent behind bars, and a drop in recidivism rates. 
For mental health, this means greater opportunity for 
productive lives and meaningful community members and to reduce 
the stigma associated with mental illness.
    We recognize that people with mental illness will continue 
to come into contact with the criminal justice system. 
Therefore, we need to collaborate with law enforcement on 
training such as that embodied in the Memphis, Tennessee, 
Crisis Intervention Team model and others. In Massachusetts, 
the department provides court clinic services to all juvenile 
and district courts. These clinics function essentially as 
emergency services programs to the district court, performing 
evaluations for competency, criminal responsibilities, and for 
civil commitment. Persons who are a danger to self or others by 
reason of mental illness or by reason of substance abuse can be 
civilly committed from the court after an evaluation by a 
designated clinician, and a hearing, of course. Counsel in 
these commitment hearings are all specially trained in mental 
health law.
    A model for pre-release planning is our Forensic Transition 
Team. The team engages with the individual while incarcerated, 
provides service coordination, continuity, and monitoring. The 
key to success has been strong interagency collaboration with 
criminal justice, cross-training, and very flexible services. 
And there are many other models across the country that have 
proven to be effective.
    There are two final points I would like to offer. The CSG 
report references that mental health systems are either too 
overwhelmed or too frustrated to help some of these 
individuals. Mental health systems have been overwhelmed, in 
part, due to historic underfunding and erosion of base 
resources. We have never realized President Kennedy's dream 
that was envisioned in the Community Mental Health Centers Act 
of 1963 that was represented earlier. And given that more than 
40 States are experiencing significant budget shortfalls, this 
situation is only exacerbated for public mental health systems.
    Some of the solutions are reasonably obvious and not 
controversial. There is no need to invent some new technology. 
The lack of service response is due to funding. Then there are 
a set of issues that may appear to provide the ready solution, 
but the effects of which are largely unproven. And that is one 
of the reasons we need your help. With these new strategies, I 
would urge the thoughtful approach for innovation through 
pilots and rigorous evaluation prior to rolling out in prime 
time. The Substance Abuse Mental Health Services Administration 
under the leadership of Charles Curie is to be commended for 
following such a process through the targeted capacity 
expansion rants for jail diversion programs.
    The Criminal Justice/Mental Health Consensus Project 
provides a model for effective collaboration. We are eager to 
work with partners in law enforcement, the courts, and 
corrections to ensure better outcomes for people with mental 
health at risk of or with histories of criminal justice 
involvement. At the same time, we welcome the advocacy of our 
partners in the project in seeking improved services and 
funding and consistent policies to support them.
    Thank you.
    [The prepared statement of Ms. Sudders appears as a 
submission for the record.]
    Chairman Leahy. Thank you very, very much.
    Commissioner, go ahead.

   STATEMENT OF KENNETH MAYFIELD, PRESIDENT-ELECT, NATIONAL 
   ASSOCIATION OF COUNTIES, AND COMMISSIONER, DALLAS COUNTY, 
                         DALLAS, TEXAS

    Mr. Mayfield. Chairman Leahy, thank you for inviting me to 
testify this morning on an issue of major importance to county 
governments--the diversion of non-violent mentally ill 
offenders from county jails and juvenile detention facilities.
    My name is Kenneth Mayfield, and I am an elected county 
commissioner from Dallas County, Texas. I currently also serve 
as president-elect of the National Association of Counties.
    From 1980 until 1988, I worked as an assistant district 
attorney for Dallas County, Texas, and eventually became chief 
of its Juvenile Division.
    It was during this period as the county's chief juvenile 
prosecutor that I witnessed firsthand the growing number of 
juveniles that were inappropriately housed in county detention 
centers by virtue of their mental illness. After studying the 
matter, it became apparent that the majority of persons with 
mental illness--be they juveniles or adults--are serving time 
for minor offenses and were usually not taking medication at 
the time of their arrest. It was also clear that many persons 
with a mental disability also suffered from a co-occurring 
disorder, such as substance abuse or homelessness, and did not 
have caregivers to oversee their daily care.
    Over a year ago, I organized a community-based task force 
in Dallas County to put together a comprehensive program to 
divert the mentally ill who commit minor offenses. The key 
focuses of the task force are: funding, housing, treatment 
eligibility criteria, communications, education/training, and 
law enforcement.
    Mr. Chairman, I have been gratified to receive the full 
support of every law enforcement agency in Dallas County. I 
have also met with a number of foundations and agencies 
interested in this program. We are presently in the process of 
submitting grant proposals to fund a full continuum of 
services. At the core of the system is a triage unit that ties 
together intake and assessment, health care, emergency, 
transitional, and permanent housing, among other services.
    The task force has already completed the production of its 
first video to provide education and training for law 
enforcement at every point of contact with the adult criminal 
justice system for persons with mental illness, mental 
retardation, and co-occurring substance abuse disorders. Videos 
to follow will target judges, prosecutors, defense attorneys, 
family members, paramedics, emergency room staff, and the 
community in general.
    Mr. Chairman, the mentally ill in jail and juvenile 
detention are not a problem unique to Dallas County. Of the 10 
million admissions to county jails each year, it is estimated 
that 16 percent are individuals suffering from mental illness. 
Most of these individuals have committed only minor 
infractions, more often the manifestation of their illness than 
the result of criminal intent. In 1999, the Bureau of Justice 
Statistics released a study on the Mentally Ill in Jail. The 
study confirmed that too often mentally ill inmates tend to 
follow a revolving door, from homelessness to incarceration and 
then back to the streets. Too many of these individuals do not 
get adequate treatment and end up being arrested again.
    The study underscores the importance of adequate 
assessments. In Los Angeles County, for example, teams of 
mental health workers and community police officers divert the 
mentally ill from the scene of an incident, but not before they 
make a preliminary assessment. In the vast majority of cases, 
the diversion is to a health unit.
    Mr. Chairman, what the public needs to understand about 
this population is not just that they will significantly 
benefit from a system of comprehensive services, including 
housing, health and human services, but also that it would be 
less expensive and more effective in the long term. For minor 
offenders, community-based mental health care is far less 
expensive than maintaining them in jail.
    By keeping the mentally ill within the health and human 
services system, we are also better able to monitor their 
condition, provide treatment, and to dispense medication if 
needed.
    Jail has the opposite effect. It traumatizes the mentally 
ill and makes them worse. For the county health department 
psychiatrist, it often means working twice as hard to get them 
back to where they were when they entered the jail. For the 
sheriff, it may mean assigning a deputy to carefully monitor 
the individual in jail.
    Mr. Chairman, the confinement of the non-violent mentally 
ill in county jails also represents a major liability problem 
for county governments. In addition, it is a financial drain on 
county budgets since Federal and State funding streams usually 
shut down when a mentally ill individual enters the jail. Even 
the person's own insurance policy may contain an exclusion for 
jail confinement.
    Multnomah County, Oregon, found that the mentally ill 
defendants stay in jail one-third longer than those who are not 
mentally ill. Lengthy incarcerations not only worsen their 
condition, they almost guarantee difficulties after their 
release.
    For example, in many States, even a short stay in the 
county jail is enough to disenroll a mentally ill person from 
such entitlements as Social Security, Medicaid and/or Medicare. 
Once an individual is released from jail, he or she is eligible 
to receive such benefits, but it may take weeks or months for 
the programs to be restored.
    The need for collaboration between criminal justice and 
health and human service agencies at the local level in dealing 
with the mentally ill cannot be overemphasized. The challenge 
is to create a seamless web of comprehensive services.
    King County, Washington, has successfully created 
integrated service systems for people with mental illness and 
other co-occurring disorders. The goal is to share clients, 
share information, share planning, and share resources across 
agency lines. In the words of one former county administrator, 
the experience in King County has demonstrated that the major 
challenge is creating a new system. ``It is a matter of joint 
planning, pooling resources, and more effectively managing 
existing resources toward new goals.''
    In conclusion, Mr. Chairman, the National Association of 
Counties has been working with a coalition of more than 30 
national organizations on a proposal for Federal assistance to 
foster community collaborations between criminal justice and 
health and human service agencies. The proposal provides 
counties with considerable flexibility to design creative 
solutions and to stimulate partnership programs between State 
and county governments.
    Thank you.
    [The prepared statement of Mr. Mayfield appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Commissioner, and you 
have raised some very interesting points, including the one 
about the insurance stopping when they are incarcerated.
    Captain?

    STATEMENT OF JOHN CACECI, CAPTAIN, MONROE COUNTY JAIL, 
                      ROCHESTER, NEW YORK

    Captain Caceci. I would also like to thank Representative 
Mayfield. I appreciate those words regarding corrections.
    Good morning. My name is John Caceci, and I am captain at 
the Monroe County Jail in Rochester, New York. Thank you, 
Chairman Leahy and Ranking Member Hatch, for inviting me to 
testify. I also want to thank my Senator, Chuck Schumer. I am 
particularly grateful to my sheriff, Patrick O'Flynn, for 
allowing me to represent our jail.
    Speaking for corrections officers across the country, I can 
tell you that identifying inmates with mental illness and 
treating, managing, and preparing them for release is one of 
the greatest, if not the single greatest challenges we face in 
overcrowded jails and prisons.
    I also want to acknowledge the value of the Consensus 
Project report. Although I did not participate in the effort, I 
know that the corrections community was represented 
extensively. The recommendations in that document are exactly 
on point.
    On any given day, there are about 1,400 inmates in our 
jail. Like any jail, the average length of stay for inmates in 
our facility is short. Over the course of a year, over 17,000 
inmates will be booked into our facility.
    Like every county in the country, our jail has experienced 
explosive growth over the last two decades. Our facility also 
resembles most jails in that it is the county's largest mental 
health facility. No other institution in Monroe County holds 
nearly as many people with mental illness, and that is just not 
right.
    We work in a jail and our job is to incarcerate offenders, 
not hospitalize sick people. With my testimony today, I would 
like to review several points. First I want to give you an idea 
of the types of people who have mental illness who land in our 
jail. Second, I would like to explain the services we attempt 
to provide these inmates. Third, I will describe the impact the 
current situation has on the operation of our jail. And, 
finally, I would like to recommend some steps that this 
committee could take to help corrections administrators and 
line staff address this overwhelming problem.
    Between 15 and 20 percent of the inmates in our jail have a 
mental illness, which is consistent with most jails in the 
country. I want to be clear that we incarcerate many offenders 
who have committed serious, violent crimes, and some of those 
people have a mental illness. Like was said earlier, they need 
to be punished and they need to be in jail. There are no two 
ways about that.
    But the majority of people we see with mental illness in 
our jail aren't murderers or sex offenders, or even criminals 
with a history of violence. They are people who have been in 
and out of our jail on countless occasions, charged with 
committing low-level offenses.
    We don't blame law enforcement officers for taking these 
people to our jail. They often don't have any other option. 
Take, for example, the young man whom police recently brought 
to us. He had a history of mental illness and was on several 
mental health medications. He had been giving his mother an 
extremely hard time. He had threatened her, and one evening he 
was particularly menacing. The mother was frightened, so she 
called 911. The police knew the emergency room would not 
provide prolonged care, so they brought him to jail. We placed 
him in a single cell on a 24-hour suicide watch.
    In regard to screening, in New York State we are unique in 
that each jail uses the same screening process. Our protocols 
are extremely effective. Jail suicides have dropped by 70 
percent over the last decade in our State. At some point, we 
hope to establish a system in which the mental health community 
can inform us when someone with mental illness whom they have 
served is in our jail.
    Good release planning is paramount. I know we have talked 
about it earlier. I can't say enough about it. We know an 
effective discharge plan includes appointments with community-
based treatment providers, a short supply of medications, 
health coverage, and linkage to supportive housing. Meeting all 
of these objectives is difficult, but it is nearly impossible 
with pre-trial detainees. Staff often receive less than 2 hours 
advance notice of these inmates' departure.
    Inmates will mental illness sometimes act out and violate 
rules, which means we have to reassign them to high-security 
cells, typically reserved for dangerous inmates. Other inmates 
with mental illness are vulnerable to predatory inmates. Other 
inmates with mental illness refuse medication or become 
manipulative. We try to discourage our staff from using a 
restraint chair, but sometimes it can't be avoided. I worry 
that as staff try to restrain the inmate, someone will get 
injured.
    I also have in the back of my mind stories I hear from 
colleagues in other facilities across the country that things 
get out of control as the officers try to subdue an inmate, 
inadvertently asphyxiating him or her.
    This is one of many reasons for providing extensive 
training. We are fortunate that Sheriff O'Flynn commits 
extensive time and resources to our annual training.
    We would like to increase mental health coverage in our 
facility 24 hours a day. We are very reluctant, however, to 
advocate for extensive mental health services in our jail. As 
it is, we receive too many people with mental illness. A first-
rate psychiatric unit in our jail would simply draw more people 
with mental illness into our facility and discourage building 
and facilitating better mental health treatment options in our 
communities.
    For this reason, we would prefer that the community's 
capacity to support people with mental illness improve. We 
would welcome community mental health providers into our 
facilities.
    If we are going to make meaningful change around this 
issue, we will need the leadership of this committee and the 
Federal Government. First, corrections needs to be included in 
any Federal effort or grant program designed to target 
offenders.
    Second, the Federal Government is in a unique position to 
promote collaborative efforts between corrections and the 
mental health community.
    And, third, the importance of training correctional staff 
on mental health issues cannot be overstated. In this regard, 
the National Institute of Corrections is an invaluable 
resource.
    In conclusion, local jails should not be in the business of 
running hospital emergency rooms for people with mental 
illness. When it comes to people with mental illness, we in 
corrections have been handed an incredibly complex problem 
which has to be addressed. We are returning people with mental 
illness to the community many times in no better shape than 
when we received them. We are doing everything we can to make 
sure these people don't hurt themselves and their health 
doesn't deteriorate further. This makes it very difficult for 
us to focus on protecting staff and inmates and the community. 
That is supposed to be our primary mission. Please help us 
fulfill it.
    Thank you very much.
    [The prepared statement of Captain Caceci appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Captain.
    I have a statement by Senator DeWine which will be included 
in the record at the opening of this and a statement--written 
testimony, rather, by Reginald Wilkinson, the Director of the 
Ohio Department of Rehabilitation and Corrections. That can be 
included in the record.
    Let me ask, Chief Margolis--and this is a question that 
actually several members on this committee have. What about 
when you get to a rural State, like Vermont, or rural areas of 
a larger State, with the unique problems in a rural area?
    Chief Margolis. Well, certainly, Senator, the problems are 
in any jurisdiction, but in rural jurisdictions, they can be 
exacerbated. Let me answer that question, sir, with a short 
story.
    Sheriff Don Edson of the Washington County Sheriff's Office 
relayed to me just several days ago that 2 weeks ago his 
deputies had taken into custody a person who had committed a 
crime. This person had mental illness.
    Now, Washington County, as you well know, sir, is 790 
square miles with 53,000 residents. That is approximately 67 
people for every square mile. That is fairly rural.
    The individual was brought to the court. The judge, the 
defense, the prosecution all agreed that a mental health 
assessment was needed, and the deputies had to wait for over 2 
and a half hours with that person for someone to come and 
screen. Now, that is 2 and a half hours that those deputies 
were taken away from the community to serve other calls for 
service.
    So this is very common, and it is frustrating, and other 
sheriffs and other police chiefs in our State of Vermont in the 
rural areas echoed this frustration.
    Chairman Leahy. That was about Washington County. I grew up 
there, and I have known Sheriff Edson from the time he was a 
child. I know the situation you talk about.
    The Council of State Governments report has a lot of 
proposals and recommendations. If there are key areas that the 
Federal Government should work on, what are those?
    Chief Margolis. Well, the models that were underscored and 
found, Senator, include areas like crisis intervention teams 
and comprehensive advance response where officers are specially 
trained. They work with mental health responders. In some 
jurisdictions, mental health professionals either respond as 
special units or as mobile crisis teams.
    We have looked at dispatch protocols, how calls are 
handled, and examined the kinds of questions that are asked by 
the dispatcher at the initial intake; on-scene assessment 
skills, how are officers trained to recognize those issues; 
what training topics should be included in police academies and 
in in-service training to help in these areas; information 
gathering and how do we evaluate the success of our response; 
and then, last, and certainly not least, is the collaborative 
areas that we can work with our colleagues in mental health and 
in corrections and in the county governments to begin to 
develop new tools to respond more effectively.
    Chairman Leahy. There have been some places in the country 
where there have been experiments with mental health courts. Do 
you have any experience with that?
    Chief Margolis. Sir, my experience with mental health 
courts is limited. My understanding is that there are a number 
of areas and a number of ways that our criminal justice 
professionals are seeking to address that issue.
    In speaking with members of our Vermont judiciary, what I 
learned was that we have commitment hearings that we use, but 
not very much done in the area of mental health courts per se.
    Chairman Leahy. Captain, I am back to your testimony. I 
think we can all agree that if people commit a crime, then 
there are consequences for criminal conduct. I spent 8 years in 
law enforcement before I was here, and I certainly have no 
question about that.
    Nobody wants to see mental illness used as an excuse to 
avoid such consequences, and we have seen cases where somebody 
has tried to use that as an excuse when it is not applicable.
    So how do you do this? You have got somebody who comes in. 
How do you determine whether they should be staying in jail or 
they should be transferred to mental health services?
    Captain Caceci. In Monroe County, we have a wonderful 
collaborative effort with our mental health staff. The socio-
legal clinic for the county handles all of our mental health 
situations.
    One of the things we have done is, on a daily basis, we 
meet with medical, mental health, and security commanders in 
the facilities, and we sit down on a daily basis Monday through 
Friday at 11 o'clock, and we go over each case of people with 
serious mental illness who is in custody, all of the cases of 
individuals who may be on suicide watch, and we discuss them 
and we try to figure out who needs to maybe go to a facility 
that has more extensive mental health coverage or could we 
approach one of the judges with mental health, psychiatry, and 
those types of people to see if we can get those people placed 
in some supportive housing or other living situation.
    So we work in a collaborative effort to try to move certain 
people out of the facility.
    Chairman Leahy. But you are welcoming the mental health 
professionals into the jail. You make this kind of 
determination. Is there a general willingness, do you think, 
among law enforcement to do that? I mean, are you unique? Or 
are you seeing this more and more around with other law 
enforcement?
    Captain Caceci. Senator, I recently have gone to the 
American Jail Association's convention in Milwaukee, and I see 
from across the country colleagues such as myself that are 
really trying to move in this direction, are trying to have 
more collaborative efforts with their local mental health 
people, and really trying to move to get those kinds of people 
with serious mental illness out of their facilities, because it 
is a tremendous drain on their resources, staffing, and what 
have you to really watch these people closely. And they don't 
want to see people deteriorate while they are in the facility.
    So I think it is across the country that we are seeing this 
movement.
    Chairman Leahy. Would it be an overstatement to say you 
want to be involved in law enforcement and you want people who 
should be in a mental health situation to be dealt with by 
people who trained to do mental health matters?
    Captain Caceci. Yes, sir.
    Chairman Leahy. Commissioner Sudders, what is your 
experience about how law enforcement and mental health agencies 
work together at the State level to address this? And the 
reason I ask, I am just trying to think about what kind of a 
model we have to talk about at the Federal level between the 
Department of Justice and Health and Human Services, and I am 
just curious. What has been your experience at the State level?
    Ms. Sudders. In Massachusetts, I am lucky and honored to 
have actually a very strong relationship with the commissioner 
of corrections. And so, in fact, the relationship between 
mental health and corrections at the State level is very 
strong. I actually have sort of quality control over the mental 
health services provided in the correctional system in 
Massachusetts to someone who is mentally ill in the prison 
system. They can also in the jails in Massachusetts transfer 
from jails to the public mental health system for inpatient 
care of there is a mentally ill offender who needs--who is 
really acutely ill, they can transfer.
    So the State level in Massachusetts, probably because both 
Commissioner Maloney and I believe very strongly about 
collaboration, we have a strong partnership. And so, in fact, 
on re-entry programs, my staff go into the prisons to start 
working with people who are mentally ill offenders to help, to 
engage with them so that when they are leaving the prison we 
can connect them with benefits and get them into the mental 
health system rather than sort of back on to the streets and 
into crime.
    But that is because of our relationship, I would say, and 
not because of some systems approach, if you would. And I think 
one of the things that I would point out from the CSJ report is 
that there is no one size to fit each State. Massachusetts is 
not a county-based system, for example, so you would not want 
to craft legislation that said it would all be county-based, 
because in Massachusetts that wouldn't be terribly helpful.
    But one of the things the CSJ report talks about in 
collaborations, and anything that the Senate would consider I 
would strongly urge that would require the collaboration and 
true partnership between mental health and criminal justice, 
and then allow States and counties and providers to sort of 
determine what makes the most sense given how we have sort of 
figured out our systems, if you would, but that you would 
require in any legislation, in any funding, true collaboration 
between mental health and criminal justice that you have to 
demonstrate in whatever kinds of applications come forward. We 
all know you can sign a letter saying, yes, you know, we sat 
down and talked, but really true collaborations is the key.
    The other thing I would say that the jails--I think 
sheriffs are doing everything they can to respond out of 
necessity. I think the quality in jails is dependent, again, 
upon who the sheriff is and how many mentally ill people are in 
their jails and whether they want to provide treatment or 
really just have the mental health system take care of them. 
But for me, sir, I would say that what the mental health system 
needs to do with criminal justice is to divert people, 
particularly the low-incidence crimes, you know, the nuisance 
crimes, that our responsibility is to really divert them so 
that they never get into jails. And that is what we need to do, 
and I would urge you, as you ask the question of the chief, 
really looking at the diversion programs, mobile crisis 
intervention teams, assessments, working closely police with 
mental health experts, so that we divert people from ever 
entering into the system to begin within.
    Chairman Leahy. Well, Commissioner, when you mention that, 
it makes me think, Commissioner Mayfield, if I am correct in 
the briefing material I was reading, you helped initiate a 
diversion program in Dallas. I was thinking on the practicality 
of it, because I happen to agree with Commissioner Sudders on 
this. How do you determine who should be diverted to mental 
health services and who, because of either themselves or the 
nature of what they have done, is going to have to be held 
right there in jail?
    Mr. Mayfield. Well, that is a very tricky assessment, 
Senator, but every police department in Dallas County--and 
right now they are gathering statistics for me on the number 
that they think they would divert on a weekly basis to this 
type of program. But every--I met with all of the police chiefs 
in Dallas County, and there are 26 cities within the county. 
And every one--I thought there might be a problem in--we are 
trying to open up a mental health triage that is open 24 hours 
for these individuals who are minor offenders, basically 
victimless crimes that they happen to be arrested and taken to 
the city's holdover and then transferred down to the counties 
because of their behavior, which is usually related to their 
mental health condition. And I thought there might be a problem 
in having them transport these individuals to this location, 
which we would like to locate somewhere close to the county 
jail in some proximity because that is where they used to come 
in. Now, it didn't matter where it is located, where the city 
is located In Dallas County, how far it is. They are willing to 
bring these individuals down to this location so that they can 
get the help they need rather than putting them in their own 
facilities or the county's facilities where they know their 
condition is just going to worsen.
    We have produced a video. We are looking at all of the 
training that they get in their academies. We are making 
recommendations on perhaps some longer training, some in-depth 
scenarios, and we have done this with mentally ill and mentally 
retarded individuals, and police officers in a video to show 
what is the most common encounter that you would have with 
someone who suffers from a mental illness or mental 
retardation, and then how you respond to that.
    Of course, each department has to come up with criteria 
of--we hope it will be uniform, and we think it will be--of 
individuals that they would divert to this system. They have to 
be comfortable that when they bring them down there that they 
are going to be taken care of, they are going to be assessed, 
we are going to find out where they have been getting services, 
if they are homeless. And, by the way, I can't emphasize enough 
permanent housing is the key to this revolving door, because 
you can divert----
    Chairman Leahy. I see a lot of heads shaking yes.
    Mr. Mayfield. You can divert all you want, but if they 
don't--if there is not some sort of supervised living condition 
for these people, who are often homeless, have no friends, have 
no family, or if they do have friends and family, they are not 
engaged with them to monitor them on a casual basis at the 
least, to see what they are doing, they are taking the 
medication that they should be taking at the time that they 
should be taking it, and keeping them out of situations where 
they come into contact with law enforcement.
    So that is a real key, and that is what we are really 
working on. We are working with HUD on vouchers and trying to 
set up not just triage mental health location but emergency and 
transitional housing and then permanent housing for these 
individuals so we can truly keep them out of the jails.
    Chairman Leahy. What is the population of Dallas County?
    Mr. Mayfield. It is 2.2 million people.
    Chairman Leahy. Like the Commonwealth of Massachusetts, we 
have counties, but we don't really have a county form of 
government. But these models are transferable easy enough to 
whatever----
    Mr. Mayfield. Yes.
    Chairman Leahy. Whether you have a State system or a 
Commonwealth system.
    Am I correct that the National Association of Counties has 
put this issue of mentally ill offenders right up near the top?
    Mr. Mayfield. It is at the top. I am the incoming 
president, Senator. It is one of my two initiatives. The other 
is early childhood development. This is diverting the mentally 
ill from county jails. So this is the top priority that NACo 
has--one of the two top priorities.
    Chairman Leahy. Kind of nice to be the boss, isn't it?
    [Laughter.]
    Mr. Mayfield. Yes, sir.
    Chairman Leahy. I was going to say, it is something like 
being a committee chairman. You can set the priorities.
    I want to thank you all for this. We had asked you--you 
know, you are going to get the transcript back of this hearing 
and all. If you get some other ideas, things that I forgot to 
ask or thoughts you have, don't hesitate to add it. We want to 
learn from this, as Congressman Strickland was saying when he 
came in here. Or if you get some ideas and you just want to 
send them to me, just send them directly to me and I will look 
at it. We want a good piece of legislation. We don't want to 
pass something just for the heck of passing something.
    I think it is a major problem. I thought it was a problem 
back when I was a prosecutor, but it has gotten much, much 
worse. You are talking about the homeless situation and all, 
and I want law enforcement to be able to do law enforcement. 
And I want the ability to help those who have mental problems 
that they be helped. Chief Margolis referred to this situation 
we had in Brattleboro. It was a terrible situation. The 
Attorney General's office rules the actions appropriate on the 
part of the police officers. But I am sure for the police 
officers, this is nothing that gave them any great joy to be 
put in a situation like that, and they shouldn't have to be.
    So I thank you. I commend you for what you are doing. I 
think all four of you have extraordinarily difficult jobs. And 
maybe people should realize that those who take a career in 
public service keep this country going, and I applaud all of 
you.
    We will stand in recess.
    Mr. Mayfield. Senator, let me just add, let me just say if 
there is any help that NACo as an organization can give to the 
success of this legislation, and certainly in looking at it and 
helping with comments, but I personally can give--in testifying 
before any committee or lobbying any of my colleagues on the 
Hill, rest assured that we will do it.
    Chairman Leahy. Thank you. I appreciate that. Thank you 
all.
    [Whereupon, at 11:07 a.m., the committee was adjourned.]
    [Submission for the record follow.]
    [GRAPHIC] [TIFF OMITTED] 86518.001
    
    [GRAPHIC] [TIFF OMITTED] 86518.002
    
    [GRAPHIC] [TIFF OMITTED] 86518.003
    
    [GRAPHIC] [TIFF OMITTED] 86518.004
    
    [GRAPHIC] [TIFF OMITTED] 86518.005
    
    [GRAPHIC] [TIFF OMITTED] 86518.006
    
    [GRAPHIC] [TIFF OMITTED] 86518.007
    
    [GRAPHIC] [TIFF OMITTED] 86518.008
    
    [GRAPHIC] [TIFF OMITTED] 86518.009
    
    [GRAPHIC] [TIFF OMITTED] 86518.010
    
    [GRAPHIC] [TIFF OMITTED] 86518.011
    
    [GRAPHIC] [TIFF OMITTED] 86518.012
    
    [GRAPHIC] [TIFF OMITTED] 86518.013
    
    [GRAPHIC] [TIFF OMITTED] 86518.014
    
    [GRAPHIC] [TIFF OMITTED] 86518.015
    
    [GRAPHIC] [TIFF OMITTED] 86518.016
    
    [GRAPHIC] [TIFF OMITTED] 86518.017
    
    [GRAPHIC] [TIFF OMITTED] 86518.018
    
    [GRAPHIC] [TIFF OMITTED] 86518.019
    
    [GRAPHIC] [TIFF OMITTED] 86518.020
    
    [GRAPHIC] [TIFF OMITTED] 86518.021
    
    [GRAPHIC] [TIFF OMITTED] 86518.022
    
    [GRAPHIC] [TIFF OMITTED] 86518.023
    
    [GRAPHIC] [TIFF OMITTED] 86518.024
    
    [GRAPHIC] [TIFF OMITTED] 86518.025
    
    [GRAPHIC] [TIFF OMITTED] 86518.026
    
    [GRAPHIC] [TIFF OMITTED] 86518.027
    
    [GRAPHIC] [TIFF OMITTED] 86518.028
    
    [GRAPHIC] [TIFF OMITTED] 86518.029
    
    [GRAPHIC] [TIFF OMITTED] 86518.030
    
    [GRAPHIC] [TIFF OMITTED] 86518.031
    
    [GRAPHIC] [TIFF OMITTED] 86518.032
    
    [GRAPHIC] [TIFF OMITTED] 86518.033
    
    [GRAPHIC] [TIFF OMITTED] 86518.034
    
    [GRAPHIC] [TIFF OMITTED] 86518.035
    
    [GRAPHIC] [TIFF OMITTED] 86518.036
    
    [GRAPHIC] [TIFF OMITTED] 86518.037
    
    [GRAPHIC] [TIFF OMITTED] 86518.038
    
    [GRAPHIC] [TIFF OMITTED] 86518.039
    
    [GRAPHIC] [TIFF OMITTED] 86518.040
    
    [GRAPHIC] [TIFF OMITTED] 86518.041
    
    [GRAPHIC] [TIFF OMITTED] 86518.042
    
    [GRAPHIC] [TIFF OMITTED] 86518.043
    
    [GRAPHIC] [TIFF OMITTED] 86518.044
    
    [GRAPHIC] [TIFF OMITTED] 86518.045
    
    [GRAPHIC] [TIFF OMITTED] 86518.046
    
    [GRAPHIC] [TIFF OMITTED] 86518.047
    
    [GRAPHIC] [TIFF OMITTED] 86518.048
    
    [GRAPHIC] [TIFF OMITTED] 86518.049
    
    [GRAPHIC] [TIFF OMITTED] 86518.050
    
    [GRAPHIC] [TIFF OMITTED] 86518.051
    
    [GRAPHIC] [TIFF OMITTED] 86518.052
    
    [GRAPHIC] [TIFF OMITTED] 86518.053
    
    [GRAPHIC] [TIFF OMITTED] 86518.054
    
    [GRAPHIC] [TIFF OMITTED] 86518.055
    
    [GRAPHIC] [TIFF OMITTED] 86518.056
    
    [GRAPHIC] [TIFF OMITTED] 86518.057
    
    [GRAPHIC] [TIFF OMITTED] 86518.058
    
    [GRAPHIC] [TIFF OMITTED] 86518.059
    
    [GRAPHIC] [TIFF OMITTED] 86518.050
    
    [GRAPHIC] [TIFF OMITTED] 86518.061
    
    [GRAPHIC] [TIFF OMITTED] 86518.062
    
    [GRAPHIC] [TIFF OMITTED] 86518.063
    
                                   - 

</pre></body></html>
